January 12, 2021
Honorable Danny Bickell, Deputy Clerk
Supreme Court of the United States
Office of the Clerk
1 First Street, N.E.
Washington, D.C. 20543
Re:

James Calvert v. Texas, No. 20-701

Dear Mr. Bickell:
This is to request a thirty-day extension of time, up to and including February
19, 2021, in which to file a brief in opposition in the above-styled cause. The
Court docketed the petition for a writ of certiorari on November 20, 2020. Over
the holidays, the undersigned and her children were in close and extended
contact with a person who tested positive for COVID-19. Accordingly, the
undersigned is quarantining with her children and is without childcare
through January 16, 2021. Thus, the undersigned requests additional time to
file the brief in opposition in the above-styled cause. This is the second
extension of time requested by the Director.
The undersigned has conferred with counsel for petitioner, David DeBruin, and
he stated that the requested extension is unopposed. Thank you for your
consideration of this matter.
Sincerely,
s/ Jennifer Morris
JENNIFER MORRIS
Assistant Attorney General
(512) 463-2991
cc:

David W. DeBruin
Julian P. SpearChief-Morris
Allison M. Tjemsland
JENNER & BLOCK LLP
1099 New York, Ave., NW, Ste. 900
Washington, DC 20001
ddebruin@jenner.com
P os t Of fic e Box 12548 , Aust in , Texa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. texa satto r neyg eneral .go v

Douglas H. Parks
321 Calm Water Ln.
Holly Lake Ranch, TX 75765
Bina M Peltz
JENNER & BLOCK LLP
919 Third Ave.
New York, NY 10022

P os t Of fic e Box 12548 , Aust in , Texa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. texa satto r neyg eneral .go v

